                                      '   NATIONAL SCIENCE FOUNDATION




           -
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      ACTION MEMORANDUM

TO: AIGI       I   File Number: A-02010003                                        1   Date: 13 MAR 2002

Subject:                                                                                       Page 1 of 1


      A proactive review of agency-wide purchase card statements generated three questionable purchases in the
      individual statement transactions for the SUBJECT. An interview with SLBJECT's supervisor justified
      all expenditures.

      This investigation is closed.




                    Prepared by:                    Cleared by:


   Name:



 Signature &
    date:
